Merrick Bank Visa® or MasterCard® Cardholder Agreement

THIS AGREEMENT CONTAINS AN ARBITRATION CLAUSE AND A CLASS ACTION WAIVER. PLEASE SEE THE
“AGREEMENT TO ARBITRATE DISPUTES AND CLASS ACTION WAIVER” SECTION BELOW FOR ADDITIONAL DETAILS.

1. Welcome to Merrick Bank and to Your Card Agreement
2. Your Promise to Pay

G-17854

1 17. Additional Deposit Account and Security Agreement Disclosures
1-2 18. Third-Party Features, Service or Benefits

01/20

4
4-5

3. How to Make Payments and How We Apply Them

2 19. You Must Read Your Billing Statement Carefully as Soon as You Receive It

5

4. You Must Make Your Minimum Payments On Time

2 20. Protecting the Account From Fraud

5

5. How Interest Is Calculated

2 21. Your Billing Rights Under the Fair Credit Billing Act

5

2-3 22. How We May Contact You to Discuss the Account

5-6

6. About Periodic Rates (APRs and DPRs)
7. Paying Interest

3 23. Where We Are and How You May Contact Us

8. About Other Interest Charges and Fees

3 24. Agreement to Arbitrate Disputes and Class Action Waiver

9. About Annual Fees

3 25. Third-Party Legal Process Against the Account or the Deposit Account

7

10. About the Credit Limits on the Account

3 26. Utah and Federal Law Apply to the Account

7

11. Foreign Currency Transactions

3 27. Jurisdiction, Venue and Service of Process

7

12. What Purchases and Cash Advances Are Not Allowed

3-4 28. We May Assign the Agreement but You May Not

6
6-7

7

13. Closing the Account

4 29. We Do Not Waive Our Rights Through Inaction or Delay

14. About Excess Payments and Credits

4 30. Severability

8

15. About Credit Reporting

4 31. The Agreement Is an Integrated Agreement

8

16. The Deposit Account and Security Agreement (If Applicable)

4 32. Glossary and Definitions

8

1. Welcome to Merrick Bank and
to Your Card Agreement. This
document and the Pricing Appendix
that came with your Card are your
Agreement with us. Please keep this
Agreement (including the Pricing
Appendix as well as any future
change-in-terms notices you may
receive) in a safe place with your
other important papers. The words
used in this Agreement are defined
and explained in the “Glossary and
Definitions” section below. You
may make Purchases anywhere
the Card is honored, so long as
you do not exceed your available
credit limit and are otherwise in
compliance with this Agreement.
The Bank is not responsible for
the failure of any merchant or any
other party to accept or honor
your Card. Unless applicable law
otherwise requires, if you make a
Purchase on your Account and the
merchant discloses a policy such
as “no returns,” “no refund,” “no
return or credit without receipt,”
“as is,” “store credit only,” “all sales
final” or similar statements, you
will be bound by the merchant’s
policy. You must acquaint yourself
with the merchant’s return policies
before you make your Purchase.
For repeat, recurring or automatic
Purchases, we may rely, to the
maximum degree permitted
by law, upon any reasonable
proof presented to us by the
merchant that you authorized such
purchases and authorized being

billed repeatedly for them. If you
have authorized repeat, recurring or
automatic Purchases and we replace
your Card due to its being lost, stolen
or at risk for fraud, we may, at our sole
discretion, notify the recipients of your
recurring or automatic Purchases, but
you agree to notify the recipients of
your recurring or automatic Purchases
of the change in your account number.
You may obtain Cash Advances from
many locations where the MasterCard
or Visa logo is displayed (depending
on whether your Card is a MasterCard
or a Visa card) or from an ATM that
displays such a logo, so long as
you do not exceed your available
credit limit or any daily Purchase
limits, or exceed your available Cash
Advance credit limit or any daily Cash
Advance limits, and are otherwise in
compliance with this Agreement.
BY USING THE CARD TO MAKE A
PURCHASE OR TO OBTAIN A CASH
ADVANCE, OR BY MAKING
A PAYMENT ON THE ACCOUNT, YOU
AGREE TO ALL OF THE TERMS AND
CONDITIONS OF THIS AGREEMENT,
INCLUDING THE PROVISION BELOW
RELATING TO FUTURE CHANGES TO
THIS AGREEMENT OR THE
PRICING APPENDIX.
We may change the terms of this
Agreement or the Pricing Appendix at
any time. We may change or remove
any of the terms and conditions
of, or add new terms or conditions
to, this Agreement or the Pricing
Appendix, including without limitation

by increasing existing fees, margins
and rates, and adding new fees and
charges, whether or not the Account
has been cancelled, suspended or
closed to new Account transactions.
To the extent allowed by applicable
law, any changes will apply to your
entire Account Balance even though
Purchases, Cash Advances or other
transactions occurring prior to the
date of the change may be part of the
Account Balance.
At any time, you may request that we
mail you a copy of this Agreement
in its then-current form, or you may
review it on the Internet at www.
merrickbank.com/agreements. If you
are visually impaired, please call us at
(800) 204-5936 for assistance.
Military Borrowers. Federal law
provides important protections
to members of the Armed Forces
and their dependents relating to
extensions of consumer credit. In
general, the cost of consumer credit
to a member of the Armed Forces
and his or her dependent may not
exceed an annual percentage rate of
36 percent. This rate must include, as
applicable to the credit transaction or
account: The costs associated with
credit insurance premiums; fees for
ancillary products sold in connection
with the credit transaction; any
application fee charged (other than
certain application fees for specified
credit transactions or accounts);
and any participation fee charged
(other than certain participation fees

7-8

for a credit card account). If you are
a member of the Armed Forces, or
a dependent of such member, you
may call 1-833-234-0758 toll free
to receive disclosures about your
Account over the telephone.
2. Your Promise to Pay. You promise
to pay, according to the terms of this
Agreement, all amounts owing under
your Account and this Agreement
including, without limitation, the
total amount of all Purchases, Cash
Advances, interest charges and all
other charges and fees described in
this Agreement. If you have requested
a Card for use by someone else, you
will be responsible for that person’s
transactions, including transactions
for which you may not have intended
to be liable. Although we will send
you Billing Statements, if you do not
receive a Billing Statement you still
must pay your Minimum Payment by
the Payment Due Date. If you do not
receive a Billing Statement, you must
call us at (800) 204-5936 to find out
your Payment Due Date and Minimum
Payment, and to advise us of your
correct mailing address. We will only
mail Billing Statements to one mailing
address. With your authorization,
we may also provide your Billing
Statements via email or other
electronic means. You must notify us
immediately of any change to your
mailing or email address. We will only
send Billing Statements to you, and
except under certain circumstances
determined by us, not to any thirdparty. No matter where we send Billing

1

Statements and whether or not you
receive them, your obligation to make
timely Minimum Payments and to
pay all other amounts owed on the
Account is not excused.
We may accept late or partial
payments without losing any of our
rights under this Agreement. You
agree not to send us partial payments
marked “paid in full,” “without
recourse,” or similar language. If you
send such a payment, we may accept
it without losing any of our rights
under this Agreement.
If you do not pay what you owe
when it is due, or if you otherwise
violate this Agreement (including in
connection with the Deposit Account
or the Bank’s security interest therein),
then in addition to all charges, interest,
fees and other amounts described in
this Agreement you also must pay us,
or our assignee, all collection costs,
legal expenses or other expenses
resulting from any and all efforts to
collect what is owed on the Account
or as a result of use of the Card, or
otherwise to respond to your violation
of this Agreement. This includes all
attorneys’ fees and arbitration or court
costs except as otherwise set forth
in this Agreement. You agree to pay
reasonable attorneys’ fees even if the
attorney is a salaried employee of the
Bank or its assignee.
3. How to Make Payments and How
We Apply Them. You must pay us
in U.S. Dollars, with a check, draft or
money order drawn on a United States
bank or the United States Postal
Service, or through an automated
clearing house acceptable to us in our
sole discretion.
Payments received by our payment
processor with the payment coupon,
from the postal or other delivery
service by 5:00 p.m. local time at
the payment address indicated on
the most recent Billing Statement
will be processed and credited to
your Account as of that date, even if
your payment instrument includes a
different date. If you send payments to
any other address or fail to include the
payment coupon, or if there are errors
or delays at the postal service or other
transmission or delivery services, the
payment may be lost or there may
be a delay in crediting the payment.
Either event could result in a Late
Payment Fee and/or additional interest
charges. Neither the postal service
nor any other money transmitter or
delivery service is Merrick Bank’s
agent, and if you use the postal
service or any other third party to
2

deliver your payment, you assume
the risk that those services lose your
payment or deliver it late. Please call
us at (800) 204-5936 or go to
www.merrickbank.com/payments
if you do not know where to send
your payment.
Payments in excess of the Minimum
Payment shown on the most recent
Billing Statement will be applied first
to the highest Annual Percentage Rate
(APR) balance. In general, amounts
up to the Minimum Payment will be
applied in the manner most favorable
to us, which usually will be to lower
APR balances (including any zero APR
balances) before higher APR balances.
We process electronic check
conversions. When you provide a
check as payment, you authorize us
to use information from your check
to make a one-time electronic funds
transfer (EFT) from your account.
In certain circumstances, such as
for technical or processing reasons,
we may process your payment as a
check transaction. An EFT likely will
clear more quickly than a payment
processed as a check, and therefore
your checking account may be debited
the same day we receive your check.
Please be sure you maintain sufficient
funds in your checking account when
you send us a check. If there are
not sufficient funds in your checking
account and your bank returns the
item to us unpaid, you must pay us a
Returned Payment Fee. With electronic
check conversion, you will not receive
your cancelled check back, but your
checking account statement should
provide sufficient information about
the EFT.
You may use your telephone to make
a same day payment on your Account
through our telephone payment
system by calling (800)-204-5936. By
using this system to make a payment,
you are authorizing us to initiate,
via the Automated Clearing House
payment network, a single debit entry
to your depository bank account in
the amount specified during the call.
For verification purposes, the last four
digits of your social security number
will be utilized as your PIN.
4. You Must Make Your Minimum
Payments On Time. Each Billing
Cycle you must pay at least the
Minimum Payment shown on the
Billing Statement by the Payment Due
Date. The Minimum Payment will be
calculated as described in the Pricing
Appendix. You may also choose to pay
any amount in excess of the Minimum
Payment, up to your New Balance in

full, in any Billing Cycle. Even if you
pay more than the Minimum Payment
in one Billing Cycle, you still must pay
the full Minimum Payment in future
Billing Cycles until the entire Account
Balance is paid. Credits applied for
reversals of Purchases (for example,
merchant credits for returned or
defective goods) or for reversals of
fees or interest charges do not count
toward your Minimum Payment. For
example, if the Minimum Payment
is $50, you still must pay us the full
$50 by the Payment Due Date even
if you return $50 worth of goods to a
merchant where you used the Card. If
the Minimum Payment is not received
on time, you agree to pay a Late
Payment Fee.
If you are in Default, we reserve
the right to (1) refuse to honor any
further Purchases or Cash Advances,
(2) reduce your credit limit, (3)
require payment of a portion of your
outstanding balance greater than
the Minimum Payment, (4) declare
the entire balance of your Account
immediately due and payable, and/
or (5) exercise such other and further
of our rights under this Agreement
or applicable law as we in our sole
discretion deem appropriate.
5. How Interest Is Calculated. We
use the Average Daily Balance method
(including new transactions) to
calculate interest on your Account.
The Average Daily Balances for
Purchases and Cash Advances are
calculated separately.
To calculate the Average Daily
Balances, we start with the beginning
balance for each day in the Billing
Cycle. For Purchases, the beginning
balance includes Purchases,
Annual Fees (including Additional
Card Fees), Late Payment Fees,
Returned Payment Fees, Over Limit
Fees, Copying Charges, Currency
Conversion Charges related to
Purchases, Expedited Phone Payment
Fees, the Account Set-up Fee, Fees
for Other Services and billed but
unpaid interest on all such amounts.
For Cash Advances, the beginning
balance includes Cash Advances,
Cash Advance Transaction Fees,
and billed but unpaid interest on all
such amounts. We then add any new
charges and subtract any payments
or credits. This gives us the daily
balance for each day, except that
if the daily balance is negative, we
treat it as zero. We then add up all of
the daily balances for each balance
and divide by the number of days in
the Billing Cycle. This gives us the

Average Daily Balance for each
balance. The interest charged for
each balance equals the Average
Daily Balance for that balance times
the applicable Daily Periodic Rate
(DPR) times the number of days in
the Billing Cycle. The results are
then added together to determine
the total interest charge for the
Billing Cycle. To the extent interest
comprises any part of your Average
Daily Balance, compounding of
interest will occur.
Charges are added as of the date
of the transaction. If a transaction
occurs in one Billing Cycle but is
not debited or credited to your
Account until the next Billing
Cycle, the transaction is added
or subtracted on the first day
of the Billing Cycle in which the
transaction is debited or credited
to your Account. If the DPR for
Purchases or Cash Advances
changes during a Billing Cycle, the
new DPR will take effect as of the
first day of the Billing Cycle.
6. About Periodic Rates (APRs
and DPRs). If your Account has an
Introductory APR for Purchases or
Cash Advances, the Introductory
APR and the corresponding
Introductory Daily Periodic Rate will
be shown in the “Interest Rates and
Interest Charges” section of the
Pricing Appendix. Introductory APRs
are fixed rates and are not based
on movements in the Prime Rate.
Introductory APRs will be in effect
until the Introductory Period End
Date shown in the “Interest Rates
and Interest Charges” section of the
Pricing Appendix.
If your Account does not have an
Introductory APR for Purchases
or Cash Advances, or after the
Introductory Period End Date, your
APRs and DPRs will vary. The APR
for Purchases and the APR for Cash
Advances will be determined by
adding, as applicable, the Purchase
Margin or the Cash Advance
Margin shown in the “Variable
Rate Information” section of the
Pricing Appendix to the Prime
Rate. The DPR is 1/365th of the
corresponding APR. However, the
APRs for Purchases and Cash
Advances will never be greater
than the lesser of the applicable
Purchase or Cash Advance APR
Cap shown in the “Variable Rate
Information” section of the Pricing
Appendix or the maximum rate
permitted by applicable law.
The “Interest Rates and Interest
Charges” section of the Pricing

Appendix includes the APRs and the
“Daily Periodic Rates” section of the
Pricing Appendix includes DPRs for
Purchases and Cash Advances as
of the date indicated in the Pricing
Appendix. Any changes in your
APRs and DPRs resulting from a
change in the Prime Rate during a
Billing Cycle will take effect as of
the first day of that Billing Cycle.
An increase in the Prime Rate may
result in an increase in the amount
of interest charged, the Minimum
Payment or both.
7. Paying Interest. Your Payment
Due Date is at least 25 days after
the close of each Billing Cycle. We
will not charge you any interest on
Purchases if you pay your entire
New Balance by the Payment Due
Date each month. We will begin
charging interest on Cash Advances
on the transaction date. If you carry
a balance from month to month you
may see interest charged on your
next statement even if you pay the
New Balance in full on time and
make no new charges. This interest
is called “trailing interest.” Trailing
interest is the interest charged (if
any) on your balance from your last
statement date to the date you paid
in full.
8. About Other Interest Charges
and Fees. You agree to pay the
following additional interest
charges and fees (if applicable to
your Account) in the amounts set
forth in the “Fees” section of the
Pricing Appendix.
a. Account Set-up Fee. If applicable,
an Account Set-up Fee will be
charged to your Account when the
Account is opened.
b. Annual Fee. If the Pricing
Appendix includes an Annual Fee,
your Account will be charged an
Annual Fee as described in the
“About Annual Fees” section of
this Agreement and you agree to
pay the Annual Fee whether or not
you activate your Card.
c. Cash Advance Transaction Fee. A
Cash Advance Transaction Fee will
be charged to your Account each
time you obtain a Cash Advance.
d. Copying Fee. Your Account will
be charged $2 for each page of any
copy of a Billing Statement, sales
slip or payment copy that the Bank
produces at your request, unless
the copies are produced to resolve
a reported billing error under the
Fair Credit Billing Act.
e. Foreign Currency Transaction
Fee. For each Purchase or Cash

Advance made in a foreign currency,
we add an additional fee of 2% of
the amount of the Purchase or Cash
Advance after its conversion into U.S.
Dollars, as described in the “Foreign
Currency Transactions” section of this
Agreement; however, if the Purchase
or Cash Advance is reversed, we do
not reverse the Foreign Currency
Transaction Fee charged on the
Purchase or Cash Advance.
f. Late Payment Fee. Your Account will
be charged a Late Payment Fee if you
have not paid the Minimum Payment
on a Billing Statement by the Payment
Due Date.
g. Minimum Interest Charge. In any
Billing Cycle in which your Account
has a balance, you were not charged a
Cash Advance Transaction Fee and the
total interest charged for that Billing
Cycle would otherwise be less than
$1, a Minimum Interest Charge will be
charged to your Account.
h. Expedited Phone Payment Fee.
If you wish expedited service for
transmittal of a payment, you
may request to make a phone
payment using a customer service
representative for which you will be
charged a fee. The amount of the fee
will be disclosed prior to fulfilling your
request.
i. Returned Payment Fee. A Returned
Payment Fee will be charged to your
Account if for any reason a check,
draft or similar instrument is not
honored or cannot be processed, or if
an EFT or electronic debit is returned
unpaid or cannot be processed, even
if the item is later honored or paid
following resubmission. Subject to
applicable law and network rules,
you authorize us to resubmit returned
payments (including without limitation
through electronic collection methods)
at our discretion.
j. Fees for Other Services. We may
charge other fees to your Account for
services associated with your Account
that you request. You may decline the
services before the fees are charged.
k. Over Limit Fee. If the law permits,
we will charge an Over Limit Fee as
set forth in the Pricing Appendix. We
are not obligated to approve any over
the limit transaction. If any amount set
forth in the Pricing Appendix exceeds
the maximum permitted by applicable
law, we will follow the law as to such
fee or charge.
9. About Annual Fees. We charge
an Annual Fee when you open the
Account whether or not you activate
or use your Card. You may cancel your

Account within 90 days of receiving
the Card by calling (800) 204-5936 or
by writing to us at Merrick Bank, P.O.
Box 9201, Old Bethpage, NY 118049001. If we receive your request to
cancel within 90 days of your receipt
of the Card, you will not be responsible
for the Annual Fee if you have not
previously used the Card or made a
payment on the Account. Otherwise,
you must pay the Annual Fee.
If you obtain an additional Card, the
amount of the Annual Fee will be
increased by the Additional Card Fee
described in the Pricing Appendix.
Both the Annual Fee and the Additional
Card Fee must be paid for each year
(or part thereof) when the Account
is open, whether or not the Card is
used during the year and whether or
not there is a balance on the Card.
Payment of the Annual Fee does not
assure you of good standing on the
Account, does not affect our right to
change the terms of this Agreement
and does not affect our right to decline
authorization of any Purchase or Cash
Advance. If the Account is closed but
with an unpaid balance the Annual
Fee must be paid for each year (or
part thereof) when there is a balance
greater than zero on the Account.
After the first year you have the Card,
we may in our discretion choose to bill
the Annual Fee and the Additional Card
Fee in 12 monthly installments.
10. About the Credit Limits on the
Account. The Bank has established a
total credit limit and a Cash Advance
credit limit on the Account. Your Cash
Advance credit limit is a portion of
your total credit limit. Any transaction
that might exceed one of these credit
limits may be declined at our sole
discretion. We may also opt, in our
sole discretion, to approve or decline
any portion of a requested transaction.
These credit limits may be reduced
at any time without warning or notice
to you, at any time, during any Billing
Cycle. When you opened the Account,
if you accepted an offer to increase
your credit line, you acknowledge
that the increase is contingent on
your making at least your Minimum
Payment on time each month for the
first seven months your account is
open and agree that if you fail to do
so, we may not increase your
credit line.
Subject to our review and approval,
you may, if your Account is secured or
partially secured, increase your credit
limit by making additional deposits
into the Deposit Account. Any such
additional deposits must be at least

$50, and without our express written
approval, the balance in the Deposit
Account may not exceed $5,000.
Certain transactions or combinations
of transactions may cause your
Account Balance or your Cash
Advance balance to reach or
exceed credit limits, and as a result
authorization for certain Purchases or
Cash Advances may be declined. For
example, even if we have credited a
payment or posted some other credit
to the Account, we still may in our
sole discretion decline to permit use
of a portion of the credit limit equal to
the amount of the payment or credit
for up to eleven days from the date
credited or posted. Additionally, certain
merchants (such as hotels or rental
car agencies) as a matter of policy will
process charges in a manner resulting
in a temporary restriction of the use
of a portion of the credit limit that is
substantially greater than the actual
amount of the charge. Please inquire
of the merchant before using the Card
to determine whether the merchant
follows such a policy.
11. Foreign Currency Transactions.
Purchases and Cash Advances made
in currencies other than U.S. Dollars
will be converted to U.S. Dollars under
the operating regulations or foreign
currency conversion procedures
established by Visa or MasterCard
then in effect. Conversion to U.S.
Dollars may occur several days or
weeks after the transaction; therefore,
the currency conversion rate may be
significantly different from the rate in
effect at the time of the transaction.
We do not determine the currency
conversion rate that is used, and it
may be significantly less favorable to
you than a rate you could obtain in a
cash transaction. You agree to pay the
converted amount.
12. What Purchases and Cash
Advances Are Not Allowed. We
may, in our sole discretion, deny
authorization for any requested
Purchase or Cash Advance. You may
not use the Account or the Card for
business or commercial purposes; the
Account and the Card may be used for
consumer purposes only.
You may not use the Account or
the Card to make payments on the
Account or anyone else’s account
with us.
You may not use the Account or the
Card for anything we deem unlawful
gambling activity.
You may not use the Account or the
Card to purchase illegal items, to
commit fraud, to harm anyone or to

3

engage in any other activity prohibited
by law.
You may not use the Account or the
Card to make Purchases that exceed
your available credit limit.
You may not use the Account or the
Card to obtain Cash Advances that
exceed your available credit limit or
available Cash Advance credit limit.
You may not use the Card, make
any Purchases or request any Cash
Advances when you or any other
person obligated on the Account is
insolvent or after a bankruptcy petition
has been filed. If you use or permit
someone else to use the Account or
the Card for a prohibited, improper
or unlawful purpose, or use or permit
use of the Account or the Card at a
time when such use is not permitted,
you will be responsible for all charges
relating to such use, to the maximum
degree permissible by law. You also
will be responsible for all additional
amounts or expenses the Bank, Visa
or MasterCard might pay as a result
of such use, such as if the Bank, Visa
or MasterCard is sued in regard to
your use of the Account or the Card.
It is your responsibility to determine
whether your transactions or those
that you permit someone else to
make are lawful. The Bank, Visa and
MasterCard are not responsible, either
separately or together, for determining
the legality of any transaction.
13. Closing the Account. We may
close the Account at any time for any
reason (or no reason) and without
prior notice. We may close the Account
for inactivity. You may close the
Account at any time. If the Account
is closed, we will not reopen it.
Authorized users of the Account other
than you may not close the Account.
All amounts due on the Account
pursuant to this Agreement must be
paid, even if the Account is closed
(no matter by whom) or charging
privileges have been reduced,
restricted or suspended. We may
suspend charging privileges at any
time and for any reason (or no reason)
without warning or notice to you. This
may, for example, occur if you fail
to comply with any provision of the
Agreement, if we in our sole discretion
believe our likelihood of being repaid
is diminished or impaired, or if overall
credit market conditions make it
infeasible or more costly to extend
credit to you.
In determining your continuing
creditworthiness, the Bank, in its
discretion, may consider, among
other things, the total amount of debt
4

you are carrying compared to your
resources or any other of your credit
characteristics, regardless of your
performance on the Account.
14. About Excess Payments and
Credits. If payments and credits
posted to the Account exceed what
you owe, you will have a credit
balance with us, which may be offset
against future Purchases or Cash
Advances. If a credit balance persists,
we will refund the credit balance
within the time frame required by
applicable law. If we are unable to
locate you, any credit balance in your
Account will be escheated pursuant to
applicable law.
15. About Credit Reporting. You
authorize us to request consumer
reports (also known as credit reports)
including periodic updates about you,
to make whatever credit investigations
we deem appropriate, to obtain
and exchange any information we
may receive from consumer reports
and other sources and to use such
information for any purpose (including
to reduce credit limits, to restrict or
suspend charging privileges or to
close the Account). You also authorize
us to furnish information concerning
your Account and your performance
under this Agreement to consumer
reporting agencies (credit bureaus) or
to others, but you acknowledge that
we are under no duty to do so. If you
believe information we have furnished
about your Account to a consumer
reporting agency is inaccurate,
you should contact the appropriate
reporting agency to request that it
investigate the possible inaccuracy.
You may also write to us at Merrick
Bank, P.O. Box 9201, Old Bethpage, NY
11804-9001 and identify the specific
information you believe is inaccurate.
WE MAY REPORT INFORMATION
ABOUT YOUR ACCOUNT TO CREDIT
BUREAUS. LATE PAYMENTS, MISSED
PAYMENTS, OR OTHER DEFAULTS
ON YOUR ACCOUNT MAY BE
REFLECTED IN YOUR CREDIT REPORT
AND MAY NEGATIVELY IMPACT YOUR
CREDIT SCORE.
16. The Deposit Account and
Security Agreement (If Applicable).
If the Account was approved on
condition of its being secured or
partially secured, the following
rules apply: (i) you agree to create
a Deposit Account, which you shall
maintain with us and cause to remain
unencumbered, except for the security
interest granted to the Bank pursuant
to this Agreement (for example, you
shall not allow the Deposit Account to
become subject to any nonconsensual

lien, judgment, attachment or
execution); and (ii) we do not allow
any withdrawal from the Deposit
Account until the Account is closed
and any outstanding Account balance
is paid in full.
YOU HEREBY GRANT TO THE BANK A
FIRST PRIORITY SECURITY INTEREST
IN THE DEPOSIT ACCOUNT, ANY
ADDITIONS TO THE DEPOSIT ACCOUNT
AND ANY PROCEEDS OF THE DEPOSIT
ACCOUNT TO SECURE PERFORMANCE
BY YOU OF ALL OF YOUR OBLIGATIONS
WITH RESPECT TO THE ACCOUNT
AND UNDER THIS AGREEMENT,
INCLUDING, WITHOUT LIMITATION, THE
OBLIGATION TO MAKE PAYMENTS TO
THE BANK AS DESCRIBED HEREIN.
If the Account is closed by you or us
for any reason, you authorize us to
apply all or any part of the funds in
the Deposit Account to reduce the
unpaid balance on the Account and
any other outstanding obligation
owed to the Bank. The application of
any funds from your Deposit Account
will be a credit adjustment to your
Account balance and will not be
treated as a payment. If we elect not
to, or otherwise fail to apply funds in
the Deposit Account against amounts
owed on the Account or on any other
outstanding obligation owed to the
Bank, you agree that: (1) we do not
thereby waive any right we have to do
so at any later date, and may so apply
such funds at any time, in our sole
discretion; and (2) you are not thereby
excused from the performance of
any obligation owing with respect
to the Account or otherwise under
this Agreement. If, however, (A) the
Account is closed by you or by us for
any reason, and (B) we fail to apply
the funds in the Deposit Account
against amounts owed on the Account
or otherwise to us, you may request,
in writing, that we apply the funds
in the Deposit Account against such
amounts. We will honor any such
written request after we receive
it at Merrick Bank, P.O. Box 9201,
Old Bethpage, NY 11804-9001. If
the amount in the Deposit Account
exceeds the amount you owe the
Bank, then, unless you instruct us
otherwise, we will handle the funds
remaining in the Deposit Account
in accordance with the terms of the
following paragraph.
After the Account has been closed
and there are no amounts owing in
connection therewith or otherwise
under this Agreement, we can hold the
funds in the Deposit Account until the
earlier of the following: (1) we elect,
in our discretion, to close the Deposit

Account and return any remaining
funds to you; or (2) not more than
30 days after we receive from you a
written request to return any funds
remaining in the Deposit Account.
17. Additional Deposit Account
and Security Agreement
Disclosures. If you have a Deposit
Account, the following shall apply:
a. Interest Rate. Interest will not be
paid on your Deposit Account.
b. Minimum Balance to Open and
Maintain the Deposit Account. You
must initially deposit, and at all
times maintain, a deposit amount
that is defined on the application
unless we specifically agree
otherwise with you. If you do not,
we either will not open the Account
or we may terminate the Account.
We reserve the right to refuse
to accept any deposit into the
Deposit Account.
c. Subsequent Deposits.
Subsequent deposits into your
Deposit Account must be at
least $50.
d. Transaction Limitations. You
may not withdraw or transfer
funds from the Deposit Account,
except as otherwise set forth in
this Agreement. Funds may not be
used to make a payment. Funds
from a closed Deposit Account will
be returned in accordance with the
section above titled “The Deposit
Account and Security Agreement.”
e. Fees. A Returned Payment Fee,
as shown in the “Fees” section
of the Pricing Appendix, will be
charged for each check or other
item submitted as a deposit to the
Deposit Account that is returned or
rejected for any reason, including
insufficient funds.
f. Statements. Information about
the Deposit Account will appear on
each Billing Statement that we
send you.
18. Third-Party Features, Services
or Benefits. If your Card includes a
rewards program, you acknowledge
and agree that third-parties
may be responsible to fulfill any
merchandise, rewards or other
redemptions, and that any such
rewards program will be governed
by separate terms and conditions
provided to you prior to participation
in the program. From time to time
your Card may include various
additional features, services and
enhancements, including common
carrier travel insurance, credit
card registration for lost or stolen

credit cards, and emergency cash
services that may be provided by
third-parties. The Bank reserves
the right to adjust, add or delete
benefits and services at any time.
19. You Must Read Your Billing
Statement Carefully as Soon as
You Receive It. You must read your
Billing Statement as soon as you
receive it. You must review all of
it carefully, including information
regarding your Deposit Account,
if any. If there is an error on your
Billing Statement and you do not
advise the Bank of that error within
60 days after the Bank mails
the Billing Statement to you, you
will be bound by what the Billing
Statement shows. You should also
read carefully the billing dispute
information provided in the section
below titled “Your Billing Rights
Under the Fair Credit Billing Act.”
20. Protecting the Account From
Fraud. Help to prevent fraud before
it occurs. Call us immediately at
(877) 727-6881 if you lose the Card,
if it is stolen or if you suspect any
fraudulent use. Reading your Billing
Statement as soon as you receive it
and reviewing transactions at www.
merrickbank.com/cardholdercenter
are ways to help prevent fraud.
You will not be responsible for any
unauthorized Purchases with the
Card occurring after we receive
notice of its loss or theft. Even if the
Purchases occur before we receive
notice of its loss or theft, you will
not be responsible for them so
long as: (1) you promptly gave us
notice of the loss or theft; and (2)
the transactions were processed by
Visa or MasterCard. We take Card
theft and fraud very seriously, and
you agree to cooperate with our
investigation and further agree to
assign to us any claims you may
have against any third party related
to theft, fraud or unauthorized use.
21. Your Billing Rights Under the
Fair Credit Billing Act.

In your letter, give us the following
information:
• Account information: Your name
and account number.
• Dollar amount: The dollar amount
of the suspected error.
• Description of problem: If you
think there is an error on your
bill, describe what you believe is
wrong and why you believe it is
a mistake.
You must contact us:
• Within 60 days after the error
appeared on your statement.
• At least 3 business days before
an automated payment is
scheduled, if you want to stop
payment on the amount you think
is wrong.
You must notify us of any potential
errors in writing. You may call us,
but if you do we are not required to
investigate any potential errors and
you may have to pay the amount
in question.
What Will Happen After We Receive
Your Letter
When we receive your letter, we must
do two things:
1. Within 30 days of receiving your
letter, we must tell you that we
received your letter. We will
also tell you if we have already
corrected the error.
2. Within 90 days of receiving your
letter, we must either correct the
error or explain to you why we
believe the bill is correct.
While we investigate whether or not
there has been an error:
• We cannot try to collect the
amount in question, or
report you as delinquent on
that amount.
• The charge in question may
remain on your statement, and
we may continue to charge you
interest on that amount.
Your Billing Rights: Keep This
• While you do not have to pay
Document For Future Use
the amount in question, you are
This notice tells you about your
responsible for the remainder of
rights and our responsibilities under
your balance.
the Fair Credit Billing Act.
• We can apply any unpaid amount
What To Do If You Find A Mistake
against your credit limit.
On Your Statement
After we finish our investigation, one
If you think there is an error on your of two things will happen:
statement, write to us at:
• If we made a mistake: You will
not have to pay the amount in
Merrick Bank
question or any interest or other
P.O. Box 9201
fees related to that amount.
Old Bethpage, NY 11804-9001

• If we do not believe there was a
mistake: You will have to pay the
amount in question, along with
applicable interest and fees. We
will send you a statement of the
amount you owe and the date
payment is due. We may then
report you as delinquent if you
do not pay the amount we think
you owe.
If you receive our explanation but still
believe your bill is wrong, you must
write to us within 10 days telling us
that you still refuse to pay. If you do
so, we cannot report you as delinquent
without also reporting that you are
questioning your bill. We must tell
you the name of anyone to whom we
reported you as delinquent, and we
must let those organizations know
when the matter has been settled
between us.
If we do not follow all of the rules
above, you do not have to pay the first
$50 of the amount you question even
if your bill is correct.
Your Rights If You Are Dissatisfied
With Your Credit Card Purchases
If you are dissatisfied with the goods
or services that you have purchased
with your credit card, and you have
tried in good faith to correct the
problem with the merchant, you may
have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following
must be true:
1. The purchase must have been
made in your home state
or within 100 miles of your
current mailing address, and
the purchase price must have
been more than $50. (NOTE:
Neither of these are necessary if
your purchase was based on an
advertisement we mailed to you,
or if we own the company that
sold you the goods or services.)
2. You must have used your credit
card for the purchase. Purchases
made with cash advances
from an ATM or with a check
that accesses your credit card
account do not qualify.
3. You must not yet have fully paid
for the purchase.
If all of the criteria above are met
and you are still dissatisfied with the
purchase, contact us in writing at:
Merrick Bank
P.O. Box 9201
Old Bethpage, NY 11804-9001
While we investigate, the same
rules apply to the disputed amount

as discussed above. After we finish
our investigation, we will tell you our
decision. At that point, if we think you
owe an amount and you do not pay,
we may report you as delinquent.
22. How We May Contact You to
Discuss the Account. We may use
automated telephone dialing, text
messaging systems and electronic
mail to provide messages to you
about scheduled payments, missed
payments and other important
information regarding this Agreement
or your relationship with us, and your
consent to our contacting you using
those means is partial consideration
for our willingness to extend credit to
you. The telephone messages may be
played by a machine automatically
when the telephone is answered,
whether answered by you or someone
else. These messages may also be
recorded by your answering machine.
You give us your permission to call or
send a text message to any telephone
number you have given us or you
give to us in the future and to play
pre-recorded messages or send text
messages with information about the
Agreement over the phone. You also
give us permission to communicate
such information to you by email.
You understand that, when you
receive such calls, texts, or emails,
you may incur a charge from the
company that provides you with
telecommunications, wireless and/or
internet services. You agree that we
will not be liable to you for any fees,
inconvenience, annoyance or loss of
privacy in connection with such calls,
texts, or emails. You understand that
anyone with access to your telephone
or email account may listen to or read
the messages, notwithstanding our
efforts to communicate only
with you. If a telephone number(s) you
have provided to us changes, or
if you cease to be the owner,
subscriber or primary user of such
telephone number(s), you agree to
immediately give us notice of such
facts so that we may update our
records. You agree that we may
refuse to authorize Purchases or Cash
Advances or close your Account if we
are unable or unauthorized to contact
you by telephone.
If you do not wish for us to use some
particular manner of contacting you,
you must notify us. However, we are
required by law to send you Billing
Statements even if you request that
we stop doing so.
If you advise us that you are
represented by an attorney, you
must provide the attorney’s name,

5

address and telephone number; if
you do not provide the attorney’s
contact information, we may contact
you to confirm the representation
and obtain the attorney’s contact
information. If the attorney does not
confirm in writing to us within 45
days after we contact the attorney
that you are his or her client, then we
will assume that you are no longer
represented by the attorney and we
may communicate with you directly.
Additionally, if any 45-day period
passes where your attorney does not
respond to communications from us,
we will assume that you are no longer
represented by the attorney and we
may communicate with you directly.
You recognize that there is an
established business relationship
between you and us. Contacts with
you about your Account are not
unsolicited and might result from
information we obtain from you or
others. If you ask us to discuss your
Account with someone else, you must
provide us with documents that we
ask for and that are acceptable to us
in our sole discretion.
You agree that we may, in our
sole discretion, monitor or record
telephone calls with you, regardless of
who initiates the call. We may at our
discretion preserve records of written,
voice and electronic communications
with you, but we do not promise to
maintain such records for any period
of time.
You agree that we may, in our sole
discretion, engage the services of an
unrelated third party for the purpose of
providing alternative format materials
for persons who are visually impaired
or providing language translation
services.
23. Where We Are and How You
May Contact Us. We are located
in Utah, and the Account is opened
and maintained there. Our customer
service telephone number is
(800) 204-5936. Payments should
be sent to the payment address
indicated on the Billing Statement.
Any general questions about your
Account or the Card, as well as any
questions or disputes of any item
on a Billing Statement, should be
mailed to: Merrick Bank, P.O. Box
9201, Old Bethpage, NY 118049001. All communications relating
to the Arbitration Agreement should
be mailed to: Arbitration Manager,
Merrick Bank, Legal Department, P.O.
Box 5000, Draper, Utah 84020-5000.
Communications sent to any other
address will not be reviewed and will
not protect your rights.
6

24. Agreement to Arbitrate Disputes
and Class Action Waiver.
The following “Agreement to
Arbitrate Disputes and Class Action
Waiver” does not apply to “Covered
Borrowers” under the Military
Lending Act.
This section is an agreement to
arbitrate disputes (“Arbitration
Agreement”) that may arise as a
result of the Agreement or your
Account. Read this Arbitration
Agreement carefully. You may reject
this Arbitration Agreement by notifying
us in writing within 60 days using
the procedure set forth at the end of
this section. If a dispute arises that is
covered by this Arbitration Agreement,
you will be required to resolve the
dispute through Binding Arbitration if
you or we request Binding Arbitration
as set forth herein. This means that
you will not be able to have the
dispute settled by trial or before a jury
or to participate in a class action in
court or a class action or consolidated
arbitration. Other rights that you would
have if you went to court may not be
available or may be more limited in
arbitration, including your right
to appeal.
In consideration for our willingness
to provide you with an Account as set
forth in the Agreement, you and we
agree as follows:
Any claim, dispute or controversy
(“Claim”) by either you or us against
the other arising from or relating in
any way to the Cardholder Agreement
or your Account, except for disputes
concerning the validity, scope or
enforceability of this Arbitration
Agreement (which are for a court
to decide), shall, at the demand of
any party, be resolved by Binding
Arbitration. However, we will not
demand arbitration pursuant to this
agreement to arbitrate in connection
with any individual Claim that
you properly file and pursue in a
small-claims court of your state or
municipality, so long as the Claim is
pending only in that court. “Binding
Arbitration” means an arbitration
proceeding before the American
Arbitration Association (“AAA”)
pursuant to the code of procedures
of the AAA in effect at the time the
Claim is filed (the “Arbitration Rules”).
If the AAA is unable or unwilling to
serve, and we cannot agree on a
replacement, a court with jurisdiction
shall select the arbitrator. Any
arbitration proceeding will take place
at a location within the federal judicial
district that includes the most recent

U.S. Mail address we have on file
for you at the time the Claim is filed
or at any other mutually acceptable
location. Any party to the arbitration
proceeding may enter judgment upon
the arbitration award in any court
having jurisdiction over the arbitration
award and may have that judgment
enforced by any court having
jurisdiction over that judgment.
A demand for arbitration under this
agreement to arbitrate may be made
either before or after a lawsuit or other
legal proceeding begins, and may be
made in papers filed in the lawsuit (for
example, a motion by the defendant
to compel arbitration of claims
asserted by the plaintiff in a lawsuit
filed in court). However, any demand
for arbitration that is made after a
lawsuit or other legal proceeding has
begun must be made within 90 days
following the service of a complaint,
third-party complaint, cross-claim or
counterclaim or any answer thereto
or any amendment to any of the
above. If a party files a lawsuit in court
asserting Claim(s) that are subject to
arbitration and the other party files a
motion to compel arbitration with the
court which is granted, it will be the
responsibility of the party asserting
the Claim(s) to start the arbitration
proceeding in accordance with the
AAA’s rules and procedures. Even
if all parties have opted to litigate a
Claim in court, you or we may demand
arbitration with respect to any Claim
made by a new party or any Claim
later asserted by a party in that or
any related or unrelated lawsuit
(including a Claim initially asserted on
an individual basis but modified to be
asserted on a class, representative or
multi-party basis). Nothing in
that litigation shall constitute a
waiver of any rights under this
Arbitration Agreement.
This agreement to arbitrate Claims
shall be broadly construed and
includes all controversies and claims
of any kind between us. It also
includes any disputes you have with
our agents, contractors, employees,
officers or assignees, any merchants
with whom you use the Account, any
credit reporting agencies to whom
we report the Account or any other
third party that has been involved
or becomes involved with, or whose
trademarks are used in connection
with, any purchasing, marketing,
soliciting, servicing or credit reporting
activity relating to your Account.
Moreover, it includes initial claims,
counterclaims, cross-claims, thirdparty claims and federal, state, local

and administrative claims and
claims which arose before the
effective date of this Arbitration
Agreement. It also includes
disputes based upon contract,
tort, consumer rights, fraud and
other intentional torts, constitution,
statute, regulation, ordinance,
common law and equity and claims
for money damages and injunctive
or declaratory relief.
The Claims covered by this
agreement to arbitrate include,
without limitation:
• Any disputes regarding: the
application you prepared in
connection with the issuance of
your Account; any solicitation
or advertising materials you
received in connection with
your Account; any activities
relating to the maintenance or
servicing of your Account; and
any funds held by the Bank in
connection with your Account;
• Any disputes arising from the
collection of amounts you owe
in connection with your Account
or the manner of collection;
• Any disputes concerning the
dollar amount of payments
made or transactions posted to
your Account;
• Any disputes concerning the
processing of items or funds
transfers sent to the Bank
for the purpose of posting to
your Account;
• Any disputes regarding
information obtained by us
from, or reported by us to,
credit bureaus or others;
• Any disputes related to
insurance or other services or
products purchased from us in
connection with your Account;
• Any disputes regarding
communications involving
telephones, automatic
dialing systems, artificial or
prerecorded voice messages,
SMS text messages or
facsimile machines; and
• Any disputes concerning the
relationships resulting from this
Cardholder Agreement, your
Account or any of the foregoing.
CLASS ACTION WAIVER: NO
ARBITRATOR OR COURT MAY
ORDER, PERMIT OR CERTIFY A
CLASS ACTION, REPRESENTATIVE
ACTION, PRIVATE ATTORNEY
GENERAL LITIGATION OR
CONSOLIDATED ARBITRATION

IN CONNECTION WITH THIS
AGREEMENT TO ARBITRATE. NO
ARBITRATOR OR COURT MAY
ORDER OR PERMIT A JOINDER OF
PARTIES IN CONNECTION WITH
THIS AGREEMENT TO ARBITRATE,
EXCEPT FOR JOINDER OF ANY
JOINT APPLICANT OR OTHER
AUTHORIZED USER OF THE
ACCOUNT, UNLESS BOTH YOU AND
WE CONSENT TO SUCH JOINDER
IN WRITING. BY ACCEPTING THIS
ARBITRATION AGREEMENT, YOU
AGREE TO WAIVE THE RIGHT TO
INITIATE OR PARTICIPATE IN A
CLASS ACTION, REPRESENTATIVE
ACTION, PRIVATE ATTORNEY
GENERAL LITIGATION OR
CONSOLIDATED ARBITRATION
RELATED TO THIS AGREEMENT
OR YOUR ACCOUNT.
JURY TRIAL WAIVER: IF YOU
OR WE ELECT TO ARBITRATE
A CLAIM, YOU AND WE BOTH
KNOWINGLY AND VOLUNTARILY
WAIVE THE RIGHT TO HAVE
A COURT OR JURY DECIDE
THE CLAIM.
The arbitrator will be required
to follow relevant substantive
law consistent with the Federal
Arbitration Act (“FAA”) and
applicable judicial precedent to
arrive at a decision and shall be
empowered to grant whatever relief
would be available in court in an
action for an individual Claim. Any
award of punitive damages shall be
subject to the constitutional limits
that would apply in court. Where
authorized by applicable law, the
arbitrator’s award may include
attorneys’ fees and other expenses.
The arbitrator shall follow any
applicable statute of limitations and
privilege rules.
You and we both agree that
the transactions subject to this
agreement to arbitrate involve
interstate commerce and that this
agreement to arbitrate shall be
governed by and enforceable under
the Federal Arbitration Act, 9 U.S.C.
§§ 1 et seq.
The cost of any arbitration
proceeding shall be divided
as follows:
• If you initiate arbitration, you
will be responsible for paying
one half of the filing fee, or
$125, whichever is less,
when the demand for
arbitration is made.
• If we initiate arbitration, we will
be responsible for paying all
arbitration costs.

• Regardless of who initiates
the arbitration, you will not be
responsible for any arbitration
fees that exceed one half of the
filing fee, or $125, whichever is
less, or the fees that you would
have incurred if the Claim had
been brought in court.
Notwithstanding the foregoing, if you
believe the cost of arbitration may
be too burdensome, you may seek
a waiver of the filing fee under the
applicable Arbitration Rules. If you
seek, but do not qualify for such a
waiver, we will consider a written
request from you to advance all
or part of the filing fee. Each party
is responsible for the fees of its
attorneys, experts, and witnesses
unless the arbitrator awards them to
a party. We will always pay any fees
or expenses that we are required to
pay by law or the Arbitration Rules or
that we are required to pay for this
Arbitration Agreement to be enforced.
The arbitrator’s decision shall become
final and binding after 30 days unless
any party to the arbitration takes an
appeal from the decision by making
a written request to the AAA. The
appeal panel, which will consist of
three arbitrators, will consider all
factual and legal issues anew, will
conduct the appeal in the same
manner as the initial arbitration, and
will make decisions based on the
vote of the majority. We will advance
any fees and costs required by the
AAA to commence any appeal and
the appealing party will pay the
arbitrator’s fee. The appeal panel’s
decision shall be final and binding,
except for any appeal rights provided
by the FAA.
In the event of a conflict between the
Arbitration Rules or the Cardholder
Agreement, on the one hand, and this
Arbitration Agreement on the other
hand, this Arbitration Agreement shall
govern. This Arbitration Agreement
shall survive the closing or termination
of your Account, voluntary payment
of your Account or any part of it,
any legal proceedings to collect
money you owe, any bankruptcy by
you and any sale or assignment by
us of your Account. If any portion
of this Arbitration Agreement is
deemed invalid or unenforceable, the
remaining portions shall nevertheless
remain in force, except that: (A) If
a determination is made that the
Class Action Waiver is unenforceable,
only this sentence of the Arbitration
Agreement will remain in force and the
remaining provisions shall be null and
void, provided that the determination

concerning the Class Action Waiver
shall be subject to appeal and the
parties acknowledge and agree that
under no circumstances will a class
action be arbitrated; and (B) If a Claim
is brought seeking public injunctive
relief and a court determines that
the restrictions in the Class Action
Waiver or elsewhere in this Arbitration
Agreement prohibiting the arbitrator
from awarding relief on behalf of third
parties are unenforceable with respect
to such Claim (and that determination
becomes final after all appeals have
been exhausted), the Claim for public
injunctive relief will be determined
in court and any individual Claims
seeking monetary relief will be
arbitrated. In such a case the parties
will request that the court stay the
Claim for public injunctive relief until
the arbitration award pertaining to
individual relief has been entered in
court. In no event will a Claim for
public injunctive relief be arbitrated.
You may contact the AAA to obtain
information about arbitration,
arbitration procedures and fees
by calling the telephone number or
going to the Internet website
indicated below:
American Arbitration Association
120 Broadway, 11th Floor
New York, NY 10271
800-778-7879
www.adr.org
RIGHT TO REJECT ARBITRATION
YOU HAVE THE RIGHT TO REJECT
THIS AGREEMENT TO ARBITRATE,
BUT YOU MUST EXERCISE THIS
RIGHT PROMPTLY. If you do not
wish to be bound by this agreement
to arbitrate, you must notify us in
writing within sixty (60) days after
the date your Account is opened.
You must send your request to:
Arbitration Manager, Merrick Bank,
Legal Department, P.O. Box 5000,
Draper, Utah 84020-5000. The
request must include your 16-digit
Account number and a clear
statement of your intent, such as “I
reject the arbitration clause in the
Merrick Bank Visa or MasterCard
Cardholder Agreement.” Your
election to reject arbitration will
not affect the other terms of your
Account, nor will we close the
Account as a result of your election
to reject arbitration.
25. Third-Party Legal Process
Against the Account or the Deposit
Account. We will comply with any
notice of garnishment, attachment,
tax levy, injunction, restraining order,
subpoena or other legal process

relating to the Account or the Deposit
Account that, in our sole judgment,
appears to be valid. If your Account or
Deposit Account becomes involved or
subject to any legal or administrative
proceeding, and we are ordered or
required to take any action relative
to your Account or Deposit Account
that is inconsistent with the terms
of this Agreement, the terms of such
order or requirement shall supersede
and replace the terms of this
Agreement. You agree to pay all of our
costs and expenses associated with
responding to any matter described
in this paragraph, including our
attorneys’ fees.
26. Utah and Federal Law Apply to
the Account. This Agreement and
all matters relating to the Card or
the Account, as well as any disputes
between us and you, shall be subject
to and governed by federal law and
the internal laws of the State of Utah
without regard to rules concerning
conflicts of law or choice of law.
27. Jurisdiction, Venue and Service
of Process. You acknowledge that
you applied for credit from a bank
located in Utah and by using the card
are borrowing money from a bank
located in Utah. You acknowledge
and agree that we may enforce this
Agreement and resolve any disputes,
for which arbitration is not demanded
in accordance with the Arbitration
Agreement, in courts located in Salt
Lake County, Utah, and that such
courts have proper jurisdiction to hear
any matters related to this Agreement.
You agree that we may serve process
upon you using certified mail from the
United States Postal Service or any
other courier service, and you hereby
acknowledge that the signature of
any person found at your residence or
other address on such mailing receipt
will serve as satisfactory proof that
process was served upon you and
shall be deemed notice to you thereof.
28. We May Assign the Agreement
but You May Not. You may not sell,
assign, or otherwise transfer this
Agreement, the Card, the Deposit
Account or the Account, or any portion
thereof, without the express written
consent of the Bank. The Bank may
sell, assign, or transfer this Agreement
or the Account or the Deposit Account,
or any portion thereof or any rights to
collect money thereunder, at any time
and without your prior consent.
29. We Do Not Waive Our Rights
Through Inaction or Delay. The
Bank’s failure to exercise (or delay in
exercising) any of its rights under

7

this Agreement or its waiver of its
rights on any one or more occasions
shall not constitute a waiver of such
rights on any other occasion. All
rights and remedies of the Bank are
cumulative and may be pursued
singularly, successively or together,
at its sole option.
30. Severability. Except as set
forth in the Arbitration Agreement,
if any portion of this Agreement is
deemed invalid or unenforceable, the
remaining portions shall nevertheless
remain in force.
31. The Agreement Is an Integrated
Agreement. This document, together
with the Pricing Appendix and any
change-in-terms notices we send
to you, constitute the final written
expression of the Agreement between
you and the Bank concerning the
Card, the Account and the Deposit
Account, and this Agreement may not
be contradicted by evidence of any
alleged oral agreement.
32. Glossary and Definitions. The
following definitions apply throughout
your Agreement.
“Account” means the credit card
account governed by this Agreement.
The Account was created in and is
maintained within the State of Utah.
“Account Balance” means what
you owe the Bank at a particular
moment in time, including all billed
and accrued interest, based upon
transactions that have posted by
that time. The balance information
you receive over the telephone or
online from us may not be your payoff
balance due to possible delays in
posting or calculation, or due to fees
or interest incurred or to be incurred,
or for other reasons.
“Annual Fee” means the annual fee, if
any, described in the Pricing Appendix
and elsewhere in this Agreement.
“Additional Card Fee” means the
additional fee, described in the Pricing
Appendix, that must be paid annually
for each additional Card provided to
you, a co-applicant or an authorized
user of the Account.
“Agreement” means this document
and the Pricing Appendix, together
with any changes in terms.

“Annual Percentage Rate” or “APR”
is the interest rate stated as a yearly
rate. As set forth in the Pricing
Appendix, different APRs will apply to
Purchases and Cash Advances.
“Arbitration Agreement” means the
section of this Agreement entitled
“Agreement to Arbitrate Disputes and
Class Action Waiver.”
“ATM” means automated
teller machine.
“Average Daily Balance” means the
average of the daily balances on your
Account during a Billing Cycle.
“Bank,” “Merrick Bank,” “we,”
“our” and “us” mean Merrick
Bank Corporation.
“Billing Cycle” means the interval
between the closing dates for each
successive Billing Statement.
“Billing Statement” means the
statement of transactions, fees
and charges that you receive for
your Account each month. We are
under no obligation to send you a
Billing Statement if your Account
Balance is zero and if you have no
transactions on the Account during
the Billing Cycle.
“Card” means the plastic card(s)
we have provided to you to make
charges to the Account, as well as any
additional, renewal, replacement or
temporary card and any other device
or technology which may be used to
make charges to the Account or to
evidence its existence.
“Cash Advance” means a transaction
with the Card wherein you receive
cash or a cash equivalent, or
wherein we provide cash or a cash
equivalent to someone at your
direction. Examples of Cash Advance
transactions include ATM transactions,
transactions made at another bank,
balance transfers, money transfers,
money order purchases, tax payments,
traveler’s check purchases, foreign
currency purchases, casino chip
purchases and gaming transactions.
Even if we choose to treat a particular
Cash Advance (or a portion of it) as
a Purchase, we may still treat other
Cash Advances (or portions of them)
as Cash Advances, and we do not
waive our right to do so.

“Cash Advance APR Cap” means the
highest APR for Cash Advances that
may apply to your Account.
“Cash Advance Margin” is the amount
that is added to the Prime Rate to
determine the APR for Cash Advances
on your Account.
“Daily Periodic Rate” or “DPR” means
the applicable APR divided by 365.
“Default” occurs if: (a) you fail to
honor any obligation under this
Agreement, including but not
limited to, your obligation to make
at least the Minimum Payment by
the Payment Due Date and to keep
the New Balance below the credit
limit; (b) we believe that you gave
us false information; (c) you die or
become the subject of any insolvency
or bankruptcy proceeding; (d) we
believe there has been a material
change in your financial condition or
your willingness to pay your debts
when due; (e) any payment you make
is rejected, not paid, or cannot be
processed; or (f) we believe that you
permanently reside outside of the
United States.
“Deposit Account” means (if the
Account is wholly or partially secured)
the Merrick Bank deposit account
opened as security for the Account, as
described in the “Deposit Account and
Security Agreement (If Applicable)”
section of this Agreement.
“EFT” means electronic funds transfer.
“Introductory Annual Percentage
Rate” or “Introductory APR” (also
“Introductory Daily Percentage Rate”
or “Introductory DPR”) is a lower
interest rate that applies for a limited
amount of time after an account is
opened. Your Account may or may not
have Introductory rates.
“Late Payment Fee” means the
fee you must pay if your Minimum
Payment is not received on time. The
amount of the Late Payment Fee is
set forth in the Pricing Appendix and
is in addition to any additional interest
charges that accrue as a result of your
paying late.
“Minimum Payment” means what you
must pay each Billing Cycle before
the Payment Due Date. The Minimum
Payment is calculated as described in
the Pricing Appendix.

“New Balance” means the total
amount you owe to the Bank as
of the end of the Billing Cycle
described in the Billing Statement.
If transactions are posted after the
end of the Billing Cycle, the New
Balance will not equal the Account
Balance under most circumstances.
“Payment Due Date” means the
date when your Minimum Payment
must be received by the Bank,
prior to 5 p.m. local time at the
payment address indicated on the
most recent Billing Statement. If
the Minimum Payment is not timely
received, you must pay a Late
Payment Fee. The Payment Due
Date will be shown on the Billing
Statement and always will be at
least 25 days after the last day of
the prior Billing Cycle.
“Pricing Appendix” refers to the
document attached to your Card
when you first received it, setting
forth applicable APRs, fees and
certain other important terms of
this Agreement.
“PIN” refers to the personal
identification number associated
with your Card for use in ATM and
other electronic transactions.
“Prime Rate” means the prime
rate of interest published on the
last business day of each month
in The Wall Street Journal (or a
comparable rate if The Wall Street
Journal ceases publication).
“Purchase” means any transaction
with the Card between you and
anyone else who accepts the Card
as a means of payment. However,
Cash Advances are not Purchases.
“Purchase APR Cap” is the highest
APR for Purchases that may apply
to your Account.
“Purchase Margin” is the amount
that is added to the Prime Rate to
determine the APR for Purchases on
your Account.
“You” and “your” means the Card
applicant, or if applying jointly,
both Card applicants, and the
person or persons to whom the
Card is issued.
Equal Opportunity Lender
Member FDIC
G-17854 01/2020

8

ACCOUNT OPENING DISCLOSURES—MERRICK SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

17.45% Your APR will vary with the market based on the Prime Rate.*

APR for Cash Advances

22.45% Your APR will vary with the market based on the Prime Rate.*

Paying Interest

Your Payment Due Date is at least 25 days after the close of each Billing
Cycle. We will not charge you interest on Purchases if you pay your
entire New Balance by the Payment Due Date each month. We will begin
charging interest on Cash Advances on the transaction date.

Minimum Interest Charge
For Credit Card Tips from the Consumer
Financial Protection Bureau

If you are charged interest, the charge will be no less than $1.00
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees

NOTICE: Some of these set-up and maintenance fees will be assessed
before you begin using your card and will reduce the amount of credit you
initially have available. For example, if your minimum credit limit is $200,
your initial available credit will be only about $164.
You may still reject this plan, provided that you have not yet used the
account or paid a fee after receiving a billing statement. If you do reject the
plan, you are not responsible for any fees or charges.

· Annual Fee
· Account Set-up Fee
Transaction Fees
· Cash Advance
·Foreign Transaction
Penalty Fees
· Late Payment
· Over Limit
· Returned Payment

$36 the first year. Billed $3 dollars per month thereafter.
$0
Either $10 or 4% of the amount advanced, whichever is greater.
2% of each transaction in U.S. Dollars.
Up to $40
$0
Up to $40

How We Will Calculate Your Balance: We use a method called "average daily balances (including new purchases)."
See your Cardholder Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Cardholder Agreement.
Annual Percentage Rates: Daily Periodic Rate for Purchases .04780%; Daily Periodic Rate for Cash Advances .06150%.
Variable Rate Information: Purchase Margin 14.20 percentage points; Cash Advance Margin 19.20 percentage points. Your APR for
Purchases and Cash Advances may vary. The rate is determined by adding the appropriate margin shown to the Prime Rate*. If the Prime
Rate* increases, your APR will increase accordingly, with no cap. An increase in your APR will result in an increase of your minimum
payment amount.
*"Prime Rate" means the prime rate of interest published on the last business day of each month in The Wall Street Journal
(or a comparable rate if The Wall Street Journal ceases publication).
Security Deposit: The credit limit assigned to the Account will be equal to the amount of your security deposit, which can be between
$200 and $3,000. The application submitted will not be complete until funds for the security deposit have been collected by Merrick
Bank. Funds must be received within 30 days to complete the application process, incomplete applications will be declined. Approved
applicants will not be allowed to make transactions using the security deposit account. The security deposit does not pay interest and will be
available for withdrawal only after your credit card account has been closed and all amounts owing have been paid in full.
Minimum Payment: All past-due amounts, any Annual Fee billed monthly, any Additional Card Fee billed monthly plus the greater of the
following amounts: (i) 1% of your New Balance plus Late Fees, Cash Advance Transaction Fees, Over Limit Fees, Returned Payment Fees,
and Interest Charges billed during the Billing Cycle for which the Minimum Payment is calculated, as shown on that periodic statement,
rounded to the next-higher dollar; or (ii) $35. If the New Balance is less than $35, the Minimum Payment will be the total amount owed.
Rev 06/1/2021mp35

